CERTIFICATE OF WORD COUNT
NO. TBD
United States ex. rel. Laurence Schneider et al.,
Petitioner(s),
v.
JP Morgan Chase Bank, Natl. Assn. et al.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the UNITED STATES EX. REL.
LAURENCE SCHNEIDER ET AL. PETITION FOR WRIT OF CERTIORARI contains 5100 words, including the
parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
November 20, 2019

SCP Tracking: DiMarco-350 Main Street-Cover White

